Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




       Medicare Payments for
       Orthotic Body Jackets




                   JUNE GIBBS BROWN
                    Inspector General

                     SEPTEMBER 1999
                      OEI-04-97-00390
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended by Public Law 100-504, is to protect the integrity of the Department of Health and
Human Services programs as well as the health and welfare of beneficiaries served by them. This
statutory mission is carried out through a nationwide program of audits, investigations,
inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary of program
and management problems and recommends legislative, regulatory, and operational approaches to
correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Atlanta Regional Office prepared this report under the direction of Jesse J. Flowers,
Regional Inspector General, and Christopher H. Koehler, Deputy Regional Inspector General.
Principal OEI staff included:

REGION                                              HEADQUARTERS

Greg Jones, Project Leader
                  Stuart Wright, Program Specialist

Betty Apt, Team Leader
                      Barbara Tedesco, Statistician

Jacqueline Watkins, Program Analyst
         Brian Ritchie, Program Analyst

Peggy Daniel, Program Analyst
               Wynethea Walker, Program Specialist



To obtain copies of this report, please call the Atlanta Regional Office at 404-562-7723. Reports
are also available on the World Wide Web at our home page address:

                                http://www.dhhs.gov/progorg/oei
                           TABLE OF CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


FINDINGS

      Claims and Payments Decreased Since 1994 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


         Devices Qualified for Medicare Reimbursement                        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


         Forty-Two Percent of L0430 Claims Upcoded . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


         Upcoding Attributed to Lack of Uniformity and Standardization . . . . . . . . . . . . . . . . . 10


         Almost 3.5 Percent of Claims Were Duplicate . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


APPENDICES

    A: Survey Response Rates . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


         B: Coding Issue . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


         C: Projectable Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21


         D: Duplicate Billings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22


         E: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

                 HCFA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

                AOPA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26


ENDNOTES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33

                      EXECUTIVE SUMMARY

PURPOSE
        To determine whether or not Medicare inappropriately pays for orthotic body jackets
        under code L0430.

BACKGROUND

        A code L0430 body jacket is a spinal orthotic device that is covered by Medicare when
        prescribed by a physician. It is defined as a custom fitted one-piece molded plastic body
        jacket with interface material and an anterior or posterior opening. In 1994, the Office of
        Inspector General reported that 95 percent of claims submitted in 1991 were for non-
        legitimate orthotic body jackets and should not have been paid.

        The Health Care Financing Administration (HCFA) established Durable Medical
        Equipment Regional Carriers (DMERCs) to process claims for durable medical
        equipment, prosthetics and orthotics supplies beginning in October 1993. HCFA also
        established the Statistical Analysis Durable Medical Equipment Regional Carrier
        (SADMERC) to analyze claims for durable medical equipment, prosthetic and orthotic
        devices and supplies (DMEPOS) and identify trends and aberrancies. Also, in 1993,
        HCFA and the durable medical equipment regional carriers revised their coverage
        guidelines for body jackets to make them more descriptive.

        To determine if suppliers are continuing to bill inappropriately for code L0430 body
        jackets, we conducted this follow-up inspection of claims filed and paid in 1996.

METHODOLOGY

        We used expert opinion from the SADMERC and the American Orthotic and Prosthetic
        Association (AOPA) to determine the propriety of claims billed under orthotic body jacket
        code L0430.

FINDINGS

Medicare Claims and Payments for Orthotic Body Jackets Have Decreased
Significantly Since 1994

        Claims for orthotic body jackets under Medicare code L0430 decreased 50.1 percent in
        the 5 year period between 1994 and 1998, from 7,214 to 3,602. Likewise, Medicare
        allowed charges for orthotic body jacket code L0430 decreased 45.8 percent from
        $7,086,939 to $3,844,364.

Medicare Payments for Orthotic Body Jackets      1                                    OEI-04-97-00390
All Orthotic Devices Claimed as L0430 Body Jackets Were Eligible for Medicare
Reimbursement

        In our 1994 study, the devices allowed for Medicare payment under code L0430 were
        typically not orthotic body jackets, but rather seat cushions for wheelchair patients.
        Therefore, they were not legitimate Medicare reimbursable products. Conversely, in our
        current inspection, the SADMERC expert said all 153 devices in our sample claimed as a
        body jacket qualified for Medicare reimbursement.

Suppliers Upcoded 42 Percent of 1996 L0430 Orthotic Body Jacket Claims

        As a result of the upcoding, the Medicare program made excessive payments of $41,405
        to orthotic body jacket suppliers in our sample. Projected to the universe of the total
        Medicare population, the excessive payments from the practice of upcoding totaled
        $828,100. The inappropriate payments for orthotic body jackets under code L0430
        accounted for 32 percent of the total cost of L0430 body jackets that we examined for
        1996.

Lack of Uniformity and Standardization May Account for Some Upcoding

        The industry offers different types of spinal orthotic products which may be reimbursed by
        Medicare. In many instances the differences between orthotic products are subtle,
        requiring an expert to match them to the proper Medicare code.

        The Medicare guidance for coding devices is vague and outdated. For coding orthoses,
        most individuals in the orthotics industry and HCFA use The Illustrated Guide to
        Orthotics and Prosthetics published by the American Orthotic and Prosthetic Association.
        However, the guide provides simplistic hand drawn pictures that provide little help for
        coding many of the more sophisticated orthotic devices currently in use.

3.5 Percent of Claims May Have Been for Unnecessary Duplicate Body Jackets

        Nine suppliers billed Medicare for duplicate L0430 body jackets for 10 of our sampled
        289 beneficiaries in 1996. In each instance the second (duplicate) body jacket seemed
        unnecessary. Therefore, Medicare paid $8,400 for L0430 body jackets that may not have
        been needed by beneficiaries. Projected to the total Medicare population, the potential
        loss to the Medicare program is estimated to be about $168,000.


RECOMMENDATIONS

        <        HCFA should review and revise the Medicare coding guidelines.

        <	
        <        HCFA should require suppliers to include more information on their
                 Medicare claims for the products they provide to beneficiaries.

Medicare Payments for Orthotic Body Jackets      2                                  OEI-04-97-00390
        <	       HCFA should encourage the DMERCs to continue, or initiate system
                 edits that detect multiple billings of orthotic body jackets to the
                 same Medicare beneficiary in a calendar year.


AGENCY COMMENTS

        The HCFA and the American Orthotic and Prosthetic Association (AOPA) both
        commented on our draft report.

        HCFA agrees that a product classification list is an effective tool to define exactly which
        products should be billed under code L0430, but they do not agree with our
        recommendation that they revise Medicare coding guidelines. Further, HCFA did not
        agree with our suggestion to work with AOPA because it would not be feasible for HCFA
        to work with a national trade organization whose interests may not necessarily coincide
        with that of the Medicare program. We continue to believe that HCFA should use AOPA
        as a resource, at least informally, to clarify Medicare coding guidelines and improve
        coding accuracy. Such consultation is important to help reduce inappropriate Medicare
        payments, since AOPA’s Illustrated Guide is widely used in the orthotics and prosthetics
        community for Medicare billing.

        HCFA did not concur with our second recommendation that they require suppliers to
        provide detailed information of Medicare claims for products they provide to beneficiaries.
        HCFA, instead, believes that random telephone reviews with beneficiaries would be a
        better solution. We agree that telephone reviews are an effective measure for detecting
        improper payments. However, we believe that assuring the propriety of payments before
        claims are paid is preferable to trying to collect improper payments. Therefore, we hope
        HCFA will still reconsider our recommendation.

        Lastly, HCFA concurs with our recommendation that the DMERCs should continue, or
        initiate, system edits that detect multiple billings for orthotic body jackets to the same
        Medicare beneficiary in a calendar year.

        Overall, AOPA feels the report was well done and accurate.

        We made technical changes suggested by HCFA and AOPA. The full text of their
        comments can be found in appendix E.




Medicare Payments for Orthotic Body Jackets       3                                   OEI-04-97-00390
                                INTRODUCTION

PURPOSE

        To determine whether or not Medicare inappropriately pays for orthotic body jackets
        under code L0430.

BACKGROUND

        A L0430 orthotic body jacket is defined as a custom fitted one-piece molded plastic body
        jacket with interface material and an anterior or posterior opening. It is designed to
        provide control of all motion of the Thoracic-Lumbar-Sacral (TLS) region and is often
        prescribed for patients after surgery.1

        Medicare allows payment for eight types of spinal orthoses: Cervical, Cervical-Thoracic-
        Lumbar-Sacral Orthoses (CTLSO), Thoracic-Lumbar Sacral Orthoses (TLSO), Lumbar-
        Sacral Orthoses (LSO), Sacroiliac, Halo Procedures, Torso Supports, and Thoracic-Hip-
        Knee-Ankle Orthoses (THKAO). These are represented by over 60 Medicare codes.2 All
        orthotic devices discussed in this report are TLSO and LSO types. An orthotic body
        jacket claimed under Medicare code L0430 is a TLSO.

        The Health Care Financing Administration’s (HCFA) Durable Medical Equipment
        Prosthetics, Orthotics, and Supplies (DMEPOS) Supplier Manual describes 26 TLSO and
        LSO spinal orthotic codes under which suppliers can obtain Medicare reimbursement. Of
        those 26 codes, L0430 is one of 10 that is specifically designated as an orthotic body
        jacket.3

Orthotic Fitting Methods

        According to the Supplier Manual, there are three types of orthotic fitting methods:
        custom fitted, custom fabricated, and molded to patient model.

        Custom fitted orthoses are assembled from prefabricated components. They are trimmed,
        bent, molded (with or without heat), or otherwise modified for use by a specific patient.
        The L0430 body jacket is a custom fitted orthotic.

        A custom fabricated orthotic is individually made for a specific patient, starting with basic
        materials which include but are not limited to plastic, metal, leather, and cloth. Custom
        fabrication involves substantial work like cutting, bending, molding and sewing. It may
        also incorporate some prefabricated components.




Medicare Payments for Orthotic Body Jackets       4                                    OEI-04-97-00390
        Molding to a patient model is the most complex fitting method, and it is usually the most
        expensive. An impression of a body part is made by using a positive plaster model of the
        patient. The orthotic is then custom fabricated by molding it onto the positive model.

Medicare Coverage of Orthotic Body Jackets

        Spinal orthoses are covered by Medicare--the Federal health insurance program for
        individuals age 65 or older and certain categories of disabled people. Medicare is
        administered by HCFA, Department of Health and Human Services.

        Medicare covers spinal orthoses only when specific conditions are met. They must be
        ordered by a physician to reduce pain by restricting mobility of the trunk, to facilitate
        healing following an injury or surgical procedure on the spine, or to support weak spinal
        muscles or a deformed spine.

Previous Office of Inspector General Studies on Orthoses

        Between 1990 and 1992, Medicare allowances for orthotic body jackets coded L0430
        rose sharply from $217 thousand to $18 million. In 1994, the Office of Inspector General
        (OIG) reported that 95 percent of claims submitted in 1991 were for non-legitimate
        orthotic body jackets and should not have been paid.4 The devices supplied were usually
        nothing more than a seat cushion for a wheelchair patient.

        Suppliers had marketed the devices to nursing homes as an alternative to restraints which
        were prohibited by the Omnibus Budget Reconciliation Act of 1990. Suppliers used
        loopholes in HCFA guidance and monitoring to claim non-legitimate devices such as
        wheelchair cushions as body jackets. A companion report5 described suppliers marketing
        practices for orthotic body jackets.

        Finally, in 1997, the OIG reported that at least 19 percent of orthoses claimed for
        Medicare reimbursement were medically unnecessary.6

HCFA Actions

        HCFA established Durable Medical Equipment Regional Carriers (DMERCs) and the
        Statistical Analysis Durable Medical Equipment Regional Carrier (SADMERC) in October
        1993. Also, in 1993 HCFA and the DMERCs revised their coverage guidelines for
        TLSOs (codes L0300-L0440) and LSOs (codes L0500-L0565) to make them more
        descriptive. The guidelines also describe appropriate uses for the products.

METHODOLOGY

        We reviewed a 5 percent sample of claims for code L0430 contained in HCFA’s 1996
        Common Working File. This sample consisted of 302 L0430 claims which had been filed
        in 1996. We dropped 3 of the 302 claims because we could not locate the address for the

Medicare Payments for Orthotic Body Jackets      5                                    OEI-04-97-00390
        supplier. This left us with a sample of 299 paid claims which represented 126 suppliers
        and 289 beneficiaries. Ten beneficiaries in our sample received two body jackets each.

Data Collection

        We surveyed the 126 suppliers by mail questionnaire to determine services provided to the
        289 Medicare beneficiaries in our sample. We obtained descriptions of orthotic devices
        supplied, how they were custom fitted, who did the custom fitting, and what material was
        used in constructing the devices. We also obtained pictures and brochures showing and
        describing devices they claimed under code L0430.

        Overall, 85 of the 126 suppliers responded to our survey--a response rate of 67.5 percent.
        The respondents represented 184 of the sampled 299 claims--61.5 percent. See appendix
        A for more detailed information.

        Of the 85 suppliers who responded to our survey, 62 (72.9 percent) provided requested
        pictures, brochures, and other descriptive data for orthotic devices provided to
        beneficiaries. The descriptive data was used to ascertain whether or not devices provided
        to beneficiaries were legitimate and properly coded. The 62 supplier responses represent
        153 claims. These 153 claims account for $2,588,688 in total projectable program costs
        of L0430 body jackets that we examined from 1996. See appendix C for more detailed
        information.

        We also reviewed HCFA and DMERC policy guidelines to understand the definition and
        characteristics of orthotic body jackets, Medicare coverage and payment rules, and coding
        guidelines for spinal orthoses.

        We interviewed HCFA officials who are responsible for oversight of orthoses and
        prostheses, pricing representatives from the Region C DMERC, coding staff from the
        SADMERC, and officials from the American Orthotic and Prosthetic Association
        (AOPA)--the trade organization which represents the industry.

        Finally, we examined expenditure data for 1994 through 1997 for spinal orthoses codes
        (L0300-L0565) from the Medicare Part B Extract and Summary System (BESS).

Data Analysis

        We integrated and compared documentary, testimonial, and analytical evidence on 299
        Medicare claims for orthotic body jackets by 126 suppliers for 289 beneficiaries. Our
        focus was to determine the extent that suppliers appropriately bill Medicare for orthotic
        body jackets under code L0430. In instances where suppliers did not answer every
        question, or provide needed data, we based our analysis on the number who actually
        responded.




Medicare Payments for Orthotic Body Jackets      6                                   OEI-04-97-00390
        To determine if suppliers billed appropriately for orthotic body jackets, we compared the
        devices individual suppliers said they provided to Medicare beneficiaries to HCFA
        standards. To make our comparison, we obtained expert opinions from the AOPA and
        from the SADMERC.

        We provided the AOPA and SADMERC experts all pictures, brochures, and other
        descriptions of specific orthotic devices suppliers sent us. They compared the descriptions
        of the devices to HCFA guidelines and standards. In some instances, AOPA and
        SADMERC experts said the quality of the pictures was inadequate for determining
        propriety of coding. In such instances, we excluded the orthotic device and pictures from
        our analysis.

        Where inappropriate claims were paid by Medicare, we calculated the excessive cost to
        Medicare. We then projected the cost to the Medicare population. See appendix B for
        calculations. To determine cost savings to the Medicare program, we used the opinion of
        the SADMERC expert because the SADMERC is charged with coding durable medical
        equipment, orthotics, prosthetics and supplies for Medicare payment.


                                     _ _ _ _ _ _ _ _ _ _ _ _ _


        We did our inspection between September 1997 and January 1999. We conducted the
        inspection in accordance with the Quality Standards for Inspections issued by the
        President's Council on Integrity and Efficiency.




Medicare Payments for Orthotic Body Jackets      7                                   OEI-04-97-00390
                                                           FINDINGS

Medicare claims and payments for orthotic body jackets
have decreased significantly since 1994
        Medicare claims for orthotic body jackets under Medicare code L0430 decreased 50.1
        percent in the 5 year period between 1994 and 1998. In 1994, suppliers submitted
        Medicare claims for 7,214 body jackets. By the end of 1998, the number of claims per
        year had decreased to 3,602. Figure 1 illustrates this decline.

                                                                       Figure 1

                                                           Total # of Claims, 1994-1998
                                                               Orthotic Body Jacket - L0430

                                           8,000

                                           7,000

                                           6,000
                             # of Claims




                                           5,000

                                           4,000

                                           3,000

                                           2,000

                                           1,000

                                                 0

                                                 1994          1995              1996         1997   1998 

                                                                                 Year




        Likewise, Medicare allowed charges for orthotic body jackets under code L0430
        decreased about 45.8 percent between 1994 and 1998. The allowed charges decreased
        from $7,086,939 in 1994 to $3,844,364 at the end of 1998. Figure 2 illustrates this
        decrease.

       Figure 2
                                                        Total Allowed Charges, 1994-1998
                                                               Orthotic Body Jacket - L0430


                                             7

                                             6

                                             5
                            $ Amount
                             Millions




                                             4

                                             3

                                             2

                                             1

                                             0
                                             1994             1995            1996            1997   1998
                                                                              Year




Medicare Payments for Orthotic Body Jackets                                  8                                OEI-04-97-00390
        Overall, Medicare allowed charges for spinal orthoses devices (including L0430)
        decreased, but the extent of this decrease was less than that of orthotic body jacket L0430
        devices. Orthoses devices reimbursed by Medicare under codes L0300 through L05657
        decreased 14.9 percent from $34,595,344 in 1994 to $29,449,254 by the end of 1998.
        We illustrate the decrease in Figure 3.

                                                               Figure 3
                                               Total Allowed Charges, 1994-1998
                                                      Orthoses Codes L0300-L0565

                                       35

                                       30

                                       25
                           $ Amount
                            Millions




                                       20

                                       15

                                       10

                                        5

                                        0

                                        1994          1995          1996           1997   1998 

                                                                    Year




All orthotic devices claimed as L0430 body jackets were
eligible for Medicare reimbursement

        In our 1994 study, the devices allowed for Medicare payment under code L0430 were
        typically not orthotic body jackets, but rather seat cushions for wheelchair patients.
        Therefore, the devices were not legitimate Medicare reimbursable products.

        Conversely, in our current inspection, the SADMERC expert said all 153 of the body
        jacket claims in our sample qualified for Medicare reimbursement. In other words, the
        devices were legitimate Medicare reimbursable orthotic devices. However, they did not
        always meet requirements to be billed under code L0430.

Suppliers upcoded 42 percent of L0430 orthotic body jacket
claims in 1996
        Suppliers upcoded 42 percent (65 of 153)8 of orthotic body jacket claims submitted under
        code L0430 in 1996. As a result of the upcoding, the Medicare program made excessive
        payments of $41,405 to orthotic body jacket suppliers for the 65 body jackets in our
        sample. Projected to the universe of Medicare beneficiaries, the excessive payments from
        the practice of upcoding totaled $828,100. Appendix B shows our calculation of
        excessive cost resulting from the upcoding of orthotic devices sold to Medicare
        beneficiaries under code L0430. The excessive cost for orthotic body jackets under code

Medicare Payments for Orthotic Body Jackets                          9                             OEI-04-97-00390
        L0430 accounted for 32 percent of the total cost of L0430 body jackets claims that we
        examined from 1996. See appendix C for our calculation.

        We identified improper coding by obtaining expert opinion from SADMERC and AOPA
        representatives. We provided them with photographs, brochures, and detailed
        descriptions of 153 body jackets furnished to Medicare beneficiaries by 62 of the 126
        suppliers we sampled. The SADMERC and AOPA experts compared the descriptions and
        photographs to HCFA standards shown for an L0430 body jacket found in DMERC
        guidelines.

        The SADMERC expert9 advised us that 42.5 percent (65 of 153) of claims should have
        been coded as orthotic devices that were less expensive than an L0430 body jacket. To
        illustrate, suppliers coded 20 L0300 orthotic devices10 as L0430 orthotic body jackets.
        The average Medicare allowed charge for an L0300 in 1996 was $111 as compared to an
        average allowable rate of $1,050 for items coded L0430.

        AOPA experts11 advised us that 16.3 percent (25 of 153) of claims should have been
        coded as orthotic devices that were less expensive than an L0430 body jacket. Therefore,
        the AOPA experts agreed with SADMERC experts that at least 16.3 percent of the 153
        body jackets we reviewed were upcoded.

        SADMERC and AOPA experts disagreed on appropriateness of coding for 40 claims.
        Their disagreement was based largely on the type of strapping used, or construction of the
        particular orthotic device sold to Medicare as an L0430 body jacket. In other words, they
        defined an L0430 body jacket differently.



Lack of uniformity and standardization may account for
some upcoding
        Representatives from the orthotic industry, and from HCFA, its contractors, and
        SADMERC all generally agreed that coding orthotics is complex and difficult to do with
        consistent results. Most coding representatives for HCFA and for the orthotics industry
        claim that the complex Medicare coding system combined with vague, outdated guidance
        has created a lack of uniformity and standardization in coding.

The coding process

        The SADMERC is responsible for assisting manufacturers and suppliers in the proper use
        of the HCFA Common Procedure Coding System (HCPCS). The HCPCS is the means by
        which DMEPOS services and products are identified for billing Medicare. The
        SADMERC in conjunction with the DMERC conducts Coding Verification Reviews to
        determine proper codes for paying suppliers for durable medical equipment, prosthetics,
        and orthotics and supplies provided to Medicare beneficiaries.

Medicare Payments for Orthotic Body Jackets     10                                  OEI-04-97-00390
Vague coding guidance

        The Medicare guidance for coding spinal orthotic devices is vague and outdated. Most
        individuals in the orthotics industry and HCFA use AOPA’s Illustrated Guide to Orthotics
        and Prosthetics in coding orthotics. However, many individuals in the industry we spoke
        to agree the guide provides simplistic hand drawn pictures of orthotic devices that provide
        little help for coding many of the more sophisticated devices currently in use. In the
        guide, AOPA states that the illustrations only provide a generic representation of what a
        device that meets the code criteria might look like. AOPA has noted that it is difficult to
        provide an illustration that would represent every billable device for a particular code;
        however, they are continually trying to improve the guide’s usefulness.

        In some cases, the pictures make orthotic devices appear identical, but the Medicare codes
        and funding differs significantly. Figure 4 provides an example of two different orthotic
        devices. Both devices are included in the AOPA’s Illustrated Guide. The pictures
        illustrate the difficulty in determining the appropriate Medicare code. The pictures of the
        two devices appear identical. However, according to the narrative description, the device
        illustrated by picture A is custom fitted, and picture B illustrates an item that is molded to
        model.

        From a Medicare cost perspective, proper coding of these two orthotic devices is
        important. To illustrate, the average cost for the orthotic device shown in picture A is
        $743. However, the average cost of the device depicted by picture B is $1,093.

                                              Figure 4
                                  Orthotic Devices L0350 and L0360
                             A                                            B




Medicare Payments for Orthotic Body Jackets       11                                   OEI-04-97-00390
The difficulty of coding orthoses

        At a meeting between the SADMERC coding staff and the AOPA, SADMERC
        representatives noted they often have a difficult time trying to determine the appropriate
        code when suppliers and manufacturers ask for advice. They base their advice on product
        descriptions that suppliers give them over the phone. The SADMERC representatives
        noted that it would be useful if they had a list of product names, model numbers and the
        specific function of a product to help determine the appropriate code to use.

        In many instances the differences between orthotic products are subtle, requiring an expert
        to match them to the proper Medicare code. In such instances, even the experts may
        disagree on the appropriate Medicare code. To illustrate, SADMERC and AOPA experts
        disagreed on the appropriateness of coding for 40 of our sample of 153 orthotic devices
        billed under code L0430 in 1996. Their disagreement was based largely on the rigidity of
        the material used, or construction of the particular orthotic device sold to Medicare as an
        L0430 body jacket. In other words, they defined an L0430 body jacket differently.

        Two such body jackets are depicted by Figure 5 below. The SADMERC and the AOPA
        disagreed on whether or not these body jackets should be coded L0430. In both cases, the
        SADMERC said the jackets did not meet requirements to be coded as a L0430, while the
        AOPA said they did. The SADMERC said both of these jackets should be coded as a
        L1499, which is the code used for devices that do not match the description of any
        existing code. In addition, the SADMERC informed us that most orthotic devices are
        coded as L1499s. Payment for such devices are decided by the DMERCs on a case by
        case basis.
                                            Figure 5
          Orthotic Body Jackets the SADMERC and the AOPA did not Agree Upon
                       5a                                          5b




        AOPA experts agreed with SADMERC experts that at least 16.3 percent (25 of 153) body
        jackets we reviewed were upcoded. One body jacket that both groups determined was
        upcoded looked similar to an L0430 body jacket, but was not made of a rigid material.

Medicare Payments for Orthotic Body Jackets     12                                   OEI-04-97-00390
        Therefore, it would not likely provide the rigid support of the spine required of a L0430
        body jacket. However, the DMERC reimbursed this device at the L0430 rate. The
        Medicare allowable charge of the orthotic device in question is about $136, as compared
        to a cost of about $1,004 for a legitimate L0430 body jacket.

In some cases code determination is clear and undisputable

        In some instances, the differences among orthotic devices are readily apparent for coding
        purposes. For example, the difference between a custom fabricated device and an “off the
        shelf” device. Figure 6 illustrates an orthotic device that both SADMERC and AOPA
        experts agreed meets the requirements for an orthotic body jacket under code L0430.
        This body jacket represented 80.6 percent (71 of 88) of the orthotic body jacket claims
        that were properly coded, and 46 percent (71 of 153) of all orthotic devices in our sample
        that were claimed under code L0430.

                                             Figure 6

                                A Properly Coded L0430 Body Jacket





3.5 percent of claims may have been for unnecessary
duplicate body jackets
        Nine suppliers billed Medicare for duplicate L0430 body jackets for 10 of the 289
        beneficiaries in 1996. In each instance the second (duplicate) body jacket seemed
        unnecessary. Therefore, Medicare paid $8,400 for L0430 body jackets that may have not
        been needed by beneficiaries. Projected to the universe of the total Medicare population,
        the potential loss to the Medicare program is estimated to be about $168,000. Appendix
        D shows our calculation.

        An orthotist with a major supplier said it is not unusual for a beneficiary to obtain two
        body jackets in a 12 month time period. Possible legitimate reasons for such include body
        changes due to surgery and weight gain or loss. Also, a patient could be dissatisfied with
        the first jacket. However, the circumstances in which the 10 duplicate jackets were



Medicare Payments for Orthotic Body Jackets     13                                  OEI-04-97-00390
        provided to the 10 Medicare beneficiaries raised serious questions about the legitimacy of
        the second jacket.

        C	       First, an orthotist with a major supplier said that when a beneficiary had a
                 legitimate reason for a second body jacket in a 12 month time period, the normal
                 expectation is for the same supplier to furnish it. This expectation occurred in only
                 one instance. Only one supplier furnished two jackets (one duplicate jacket) to the
                 same beneficiary.

                 One supplier furnished five of the duplicate body jackets to five beneficiaries.
                 Likewise, one other supplier furnished four duplicate body jackets to four
                 beneficiaries. Neither of the two suppliers had furnished both body jackets to
                 either of the beneficiaries.

        C	       Second, seven of the nine suppliers involved in furnishing duplicate jackets to
                 Medicare beneficiaries in our sample were located in or near Los Angeles,
                 California. One of the remaining two suppliers was located in Las Vegas, Nevada,
                 and one was located in Hialeah, Florida.

        C	       Third, all 10 beneficiaries received the second (duplicate) body jackets in a very
                 short time period after receiving the first body jacket. To illustrate, two different
                 suppliers each billed Medicare for an L0430 body jacket for the same beneficiary.
                 One of the two suppliers billed Medicare for the second body jacket nine days after
                 the other supplier had billed Medicare.

                 Likewise, 5 different suppliers billed Medicare for a second body jacket for 5
                 beneficiaries within 30 to 33 days after Medicare had been billed for the first body
                 jacket for the beneficiaries. Further, 3 different suppliers billed Medicare for a
                 second body jacket for 3 beneficiaries within 131 to 135 days after Medicare had
                 been billed for the first body jacket for the beneficiaries.

                 Finally, one supplier billed Medicare for a second body jacket for one beneficiary
                 52 days after this same supplier had billed Medicare for a first body jacket for this
                 same beneficiary.

        Because of our concerns, we questioned the carrier about the propriety of the 20 body
        jackets furnished to the 10 Medicare beneficiaries in our sample. The short time period
        involved suggested that either the second body jacket was not needed or not provided.
        The close proximity of most of the suppliers to one another suggested that suppliers could
        be swapping beneficiary Health Insurance Claim Numbers (HICN) to bill for the second
        orthotic body jacket to avoid detection.

        Responding to our questions, the fraud units of the respective carriers advised us that all
        of the suppliers involved have either been suspended or placed in a medical or prepayment
        review status. Further, all of them are under investigation. One of the suppliers has been

Medicare Payments for Orthotic Body Jackets        14                                   OEI-04-97-00390
        referred to the Office of Inspector General’s Office of Investigations. However, two of
        the suppliers continue to bill Medicare. Lastly, one was investigated in 1996 and as a
        result had to return $150,000 to HCFA.

        At the time of our review in 1996, only one of four DMERCs had system edits to review
        second orthotic body jacket claims for a Medicare beneficiary in the same calendar year.
        Since 1996, two more have implemented such system edits. The DMERCs noted that a
        second orthotic body jacket claim is denied unless there is a medical necessity determined
        by a physician. As of March 1999, one DMERC still did not have a system edit in place to
        detect duplicate billings.




Medicare Payments for Orthotic Body Jackets     15                                  OEI-04-97-00390
                        RECOMMENDATIONS


        Although claims for orthotic body jackets submitted under code L0430 have decreased,
        almost half are upcoded. This resulted in an excessive cost of $828,100 in 1996 to the
        Medicare Trust Fund. Orthotic coding problems continue to exist because coding
        guidelines are not specific enough, and have not kept up with product changes. If not
        corrected, we project the upcoding problem could unnecessarily cost the Medicare Trust
        Fund over $4 million between 1996 and 2002.

        Likewise, Medicare paid for duplicate orthotic body jacket claims resulting in unnecessary
        costs of $168,000 in 1996. If not corrected by system edits we project this problem could
        cost Medicare over $800,000 over the 5-year period between 1996 and 2002. Therefore,
        we submit the following recommendations for HCFA consideration.

        <	       HCFA should review and revise the Medicare coding guidelines.
                 In doing so, HCFA should work with the SADMERC and AOPA to develop
                 Medicare guidelines that more accurately describe the characteristics of the
                 devices. Further, HCFA should work with the SADMERC and AOPA to develop
                 a new illustrated guide which is more reflective of the orthotic products currently
                 in use. Lastly, HCFA should develop a product listing of brand names and model
                 numbers that meet the criteria to be billed under each code.

        <	
        <        HCFA should require suppliers to include more information on their
                 Medicare claims for the products they provide to beneficiaries.
                 Any of the following kinds of information could be useful for this purpose: a
                 description of the body jacket that encompasses its features, a description of the
                 spinal problem that requires a body jacket, or a brand name, model number, or
                 picture of the body jacket.

        <	       HCFA should encourage the DMERCs to continue, or initiate, system
                 edits that detect multiple billings of orthotic body jackets to the
                 same Medicare beneficiary in a calendar year.




Medicare Payments for Orthotic Body Jackets       16                                  OEI-04-97-00390
                         AGENCY COMMENTS

        The HCFA and the AOPA both commented on our draft report.

        HCFA agrees that a product classification list is an effective tool to define exactly which
        products should be billed under code L0430. They plan to ask the SADMERC to compile
        such a list after responding to Year 2000 and 1997 Balanced Budget Act priorities.

        HCFA did not agree with our recommendation to revise Medicare coding guidelines.
        Instead, they believe a product classification list is a more effective tool than revising the
        coding guidelines. HCFA expressed concern about entering into a formal joint effort with
        AOPA to develop Medicare guidelines. We agree with HCFA that AOPA, as a national
        trade organization, represents the interests of orthotists and prosthetists whose interests
        may not coincide with those of the HCFA. However, we continue to believe HCFA
        should use AOPA as a resource, at least informally, to clarify Medicare coding guidelines
        and improve coding accuracy. Such consultation is important to help reduce inappropriate
        Medicare payments, since AOPA’s Illustrated Guide is widely used by orthotists and
        prosthetists for Medicare billing. Further, AOPA developed a definition of orthotic body
        jacket code L0430 that HCFA may be able to use in the Medicare Carriers Manual.

        HCFA does not concur with our recommendation that they require suppliers to provide
        detailed information on Medicare claims for products they provide to beneficiaries.
        HCFA, instead, believes that random telephone reviews with beneficiaries would be a
        better solution. We agree that telephone reviews are an effective measure for detecting
        improper payments. However, we believe that assuring the propriety of payments before
        claims are paid is preferable to trying to collect improper payments. Therefore, we hope
        HCFA will still reconsider our recommendation. Orthotic body jackets, while
        complicated, are relatively few in number, and additional information about the product
        would be useful to help ensure proper coding and payments. We modified the wording of
        our recommendation to reflect the fact that we did not intend to prescribe a burdensome
        process for providers and HCFA contractors.

        Lastly, HCFA concurs with our recommendation that the DMERCs should continue, or
        initiate, system edits that detect multiple billings for orthotic body jackets to the same
        Medicare beneficiary in a calendar year.

        Overall, AOPA believes the report was well done and accurate. They did raise an issue
        concerning the quality of the pictures we gave them and the SADMERC to analyze. We
        clarified our methodology for this report to show that we excluded the poor quality
        pictures from our analysis.

        We made technical changes suggested by HCFA and AOPA. The full text of their
        comments can be found in appendix E.

Medicare Payments for Orthotic Body Jackets       17                                   OEI-04-97-00390
                                                                                                     APPENDIX A


                                 Survey Response Rates




                                                         Overall Sample

                                      Suppliers                                Claims                Beneficiaries

                                 #                 %                      #              %      #                %

       Sampled                  126               100                    299            100    289              100

       Undeliverable            18                14.3                   41             13.7   38               13.1

       Non-Respondents          23                18.3                   74             24.7   74               25.6


       Final Response           85                67.5                   184            61.5   177              61.2
       Rate




                                                          Coding Issue

                                      Suppliers                                Claims                Beneficiaries

                                 #                 %                      #              %      #                %

       Sampled                  85                100                    184            100    177              100

       Non-Respondents          23                27.1                   31             16.8   31               17.5

       Response                 62                72.9                   153            83.2   146              82.5
       Rate




Medicare Payments for Orthotic Body Jackets                   18                                              OEI-04-97-00390
                                                                                                                                       APPENDIX B
                                                                                                                                       con’t

               Overpayments from Upcoding

           Potential Excess Cost Resulting from Upcoding
                                    AOPA                SADMERC                          According to SADMERC: Excessive
           Survey/           # of   Claims              Claims               Med Avg     Amt Medicare            Cost Per        Total Excess Cost
           Supplier #       Claims improper coding      improper coding      Allwd Chg   should have Allwd       Claim           To Medicare
                         2        1                  0                   1      $1,004                      $371          $633                $633
                         3        1                  1                   0        $998                      $998            $0                  $0
                         4        1                  0                   0      $1,004                    $1,004            $0                  $0
                         5        1                  0                   0        $990                      $990            $0                  $0
                         6        1                  0                   0      $1,004                    $1,004            $0                  $0
                         7        2                  0                   2      $1,081                      $161          $920              $1,840
                         8       10                  0                   0      $1,081                    $1,081            $0                  $0
                         9        1                  0                   0      $1,081                    $1,081            $0                  $0
                        10        1                  1                   1      $1,004                      $136          $868                $868
                        11        1                  1                   1      $1,004                      $136          $868                $868
                      11.1        1                  1                   1      $1,100                      $136          $964                $964
                        13        1                  1                   1      $1,004                      $136          $868                $868
                        14        2                  2                   2      $1,004                      $136          $868              $1,737
                        15        1                  0                   1      $1,004                      $339          $665                $665
                        17        1                  0                   0        $966                      $966            $0                  $0
                        18        1                  1                   1        $966                      $136          $830                $830
                        19        1                  0                   1      $1,094                      $339          $755                $755
                        21        1                  0                   0      $1,096                    $1,096            $0                  $0
                      21.1        1                  0                   0      $1,096                    $1,096            $0                  $0
                        22        1                  0                   1        $938                      $373          $565                $565
                        23        1                  0                   0      $1,004                    $1,004            $0                  $0
                        24        1                  0                   0      $1,081                    $1,081            $0                  $0
                        26       24                  0                   0      $1,081                    $1,081            $0                  $0
                        27        2                  0                   0      $1,004                    $1,004            $0                  $0
                        30        1                  0                   0      $1,081                    $1,081            $0                  $0
                        31        2                  0                   0      $1,081                    $1,081            $0                  $0
                        32        4                  0                   0      $1,081                    $1,081            $0                  $0
                        36       14                  0                   0      $1,081                    $1,081            $0                  $0
                        37        1                  0                   0        $900                      $900            $0                  $0
                        38        2                  2                   2        $937                      $131          $806              $1,611
                      38.1        2                  2                   2      $1,050                      $131          $919              $1,837
                        39        3                  3                   3      $1,050                      $131          $919              $2,756
                        41        2                  0                   2      $1,096                      $339          $757              $1,514
                        43        1                  0                   0        $945                      $945            $0                  $0
                        44        1                  0                   1      $1,004                      $339          $665                $665
                        45        1                  0                   0        $900                      $900            $0                  $0
                        47        3                  3                   3      $1,081                      $144          $937              $2,812
                        48       15                  0                  15      $1,081                      $339          $742             $11,127
                        49        1                  0                   1      $1,081                      $161          $920                $920
                        50        1                  0                   1      $1,081                      $373          $708                $708
                        51        7                  0                   0      $1,081                    $1,081            $0                  $0
                        52        2                  0                   0      $1,167                    $1,167            $0                  $0
                        53        1                  0                   0      $1,081                    $1,081            $0                  $0
                        55        1                  0                   1        $937                      $339          $598                $598
                        56        1                  0                   0      $1,004                    $1,004            $0                  $0
                        59        1                  0                   0      $1,094                    $1,094            $0                  $0
                        60        2                  0                   0        $998                      $998            $0                  $0
                        61        1                  0                   1      $1,004                      $363          $641                $641
                        62        1                  0                   1      $1,167                      $430          $737                $737
                        64        1                  0                   1      $1,167                      $143        $1,024              $1,024
                        67        1                  0                   1      $1,081                      $339          $742                $742
                        68        1                  0                   1        $998                      $411          $587                $587
                        72        1                  0                   1        $998                      $339          $659                $659
                      72.1        1                  0                   1        $969                      $339          $630                $630
                        73        1                  0                   0        $899                      $899            $0                  $0
                        79        1                  0                   1        $945                      $371          $574                $574
                        80        1                  0                   0        $937                      $937            $0                  $0
                      80.1        1                  0                   0      $1,096                    $1,096            $0                  $0
                        82        1                  0                   0      $1,004                    $1,004            $0                  $0
                        83        1                  0                   1      $1,004                      $123          $881                $881
                        84        5                  0                   5      $1,081                      $339          $742              $3,709
                        85        7                  7                   7      $1,050                      $131          $919              $6,431
           Totals:             153                  25                  65                                                                 $51,756




Medicare Payments for Orthotic Body Jackets                                       19                                                                 OEI-04-97-00390
       Summary Statistics for Overpayments from Upcoding


1.      $51,756 (Total Overpayment for Sample)

2. 	    Multiply the overpayment by .80, since Medicare pays 80% of the allowed charge.

        $51,756 x .80 = $41,405 (Loss to the Medicare program)

3.	     Multiply the loss to the Medicare program by 20, since these figures are on a 5 percent
        sample.

        $41,405 x 20 = $828,100

4.	     Projected savings over 5 years:

        $828,100 x 5 = $4,140,500


Confidence Intervals


            Sample Size           % of Upcoded         Lower 95%      Upper 95%
                                  Orthotic Body        Confidence     Confidence
                                  Jackets              Interval       Interval
            153                   42%                  34.2%          49.8%



            Sample Size           Estimated            Lower 95%      Upper 95%
                                  Overpayment          Confidence     Confidence
                                                       Interval       Interval
            153                   $828,100             $672,882       $983,318




Medicare Payments for Orthotic Body Jackets       20                                OEI-04-97-00390
                                                                                APPENDIX C


           Total Projectable Costs of Code L0430 in Sample

1.      $161,793         (Total Cost of 153 Orthotics Body Jackets in Sample)


2. 	    $161,793
              x 20       (Multiply by 20 since it is a 5 Percent Sample)
        ------------
        $3,235,860       (Total Projectable Costs in Sample)


3. 	    $3,235,860
              x .80      (Medicare Pays 80%)
        -------------
        $2,588,688       (Total Projectable Costs in Sample of L0430 Orthotic Body Jackets)


4.      $828,100/$2,588,688 = 32% (Total Percentage of the dollar amount that was upcoded)




Medicare Payments for Orthotic Body Jackets       21                                OEI-04-97-00390
                                                                                APPENDIX D


                                       Duplicate Billings

1.      $1,050           (Average allowed cost of an orthotic body jacket in 1996)
         x 10            (Total # of beneficiaries who received two orthotic body jackets)
        ---------
        $10,500          (Potential overpayment for double billing)

2.	     $10,500
         x .80           (Percent Medicare pays of the allowable charge)
        ----------
        $8,400                    (Potential loss to the Medicare program)

3.	     Multiply the potential loss to the Medicare program by 20, since these figures are based on
        a 5 percent sample.

        $8,400 x 20 = $168,000 (Potential loss to the Medicare program)

4.	     Potential Savings over 5 years:

        $168,000 x 5 = $840,000

Confidence Interval


            Sample Size           Potential             Lower 95%        Upper 95%
                                  Overpayment           Confidence       Confidence
                                                        Interval         Interval
            153                   $168,000              $65,609          $270,391




Medicare Payments for Orthotic Body Jackets        22                                 OEI-04-97-00390
                                                         APPENDIX E




                                      Agency Comments

Health Care Financing Administration (HCFA)
American Orthotic and Prosthetic Association (AOPA)




Medicare Payments for Orthotic Body Jackets   23            OEI-04-97-00390
                                                                                ENDNOTES



1.      Source: American Orthotic and Prosthetic Association’s Illustrated Guide to Orthotics
        and Prosthetics.

2.      Source: American Orthotic and Prosthetic Association.

3.	     The 26 codes are: L0300, L0310, L0315, L0317, L0320, L0330, L0340, L0350, L0360,
        L0370, L0380, L0500, L0510, L0515, L0520, L0530; orthotic body jacket codes, L0390,
        L0400, L0410, L0420, L0430, L0440, L0540, L0550, L0560, L0565.

4.      Medicare Payments for Orthotic Body Jackets (OEI-04-92-01080).

5.      Marketing of Orthotic Body Jackets (OEI-04-92-01081).

6.      Medicare Payments for Orthotics (OEI-02-95-00380).

7.	     The codes used in this analysis: L0300, L0310, L0315, L0317, L0320, L0330, L0340,
        L0350, L0360, L0370, L0380, L0390, L0400, L0410, L0420, L0430, L0440, L0510,
        L0515, L0520, L0530, L0540, L0550, L0560, L0565; (L0500 was not a part of this
        analysis because the code is no longer used).

8.	     We selected 299 claims contained in HCFA’s 1996 Common Working File which is a five
        percent random sample of all Medicare claims. Of the providers, 62 furnished descriptive
        information such as photographs and brochures for 153 of the jackets claimed under
        Medicare code L0430.

9.	     The expert is the Coordinator of the HCPCS unit of the SADMERC which has
        responsibility for coding reimbursable durable medical equipment for the Medicare
        program.

10.	    A L0300 is less expensive and more flexible than a L0430 and it does not provide the rigid
        support that is required of an L0430. It also lacks the interface material required by
        L0430. Source: AOPA’s, Illustrated Guide to Orthotics and Prosthetics and a
        representative from the SADMERC.

11.	    Experts are members of the AOPA Coding Committee and AOPA members who train the
        SADMERC on HCPCS coding for orthoses and prostheses. AOPA noted that in cases
        when the coding committee could not agree if a product was appropriately billed as an
        L0430 the majority opinion of the group was used.




Medicare Payments for Orthotic Body Jackets     33                                  OEI-04-97-00390
